OFFICE OF INSPECTOR GENERAL


AUDIT OF CRITICAL
ACTIVITIES FINANCED BY
USAID REGIONAL
DEVELOPMENT
MISSION/ASIA’S U.S. INDIAN
OCEAN TSUNAMI WARNING
SYSTEM PROGRAM
AUDIT REPORT NO. 5-486-07-003-P
February 27, 2007




MANILA, PHILIPPINES
Office of Inspector General


February 27, 2007

MEMORANDUM

TO:                  USAID Regional Development Mission/Asia Director, Olivier Carduner

FROM:                Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of Critical Activities Financed by USAID Regional Development
                     Mission/Asia’s U.S. Indian Ocean Tsunami Warning System Program
                     (Audit Report No.: 5-486-07-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments in Appendix II.

This report contains two recommendations to improve USAID Regional Development
Mission/Asia’s U.S. Indian Ocean Tsunami Warning System Program activities. Based on the
information provided by the Mission in response to the draft report, we consider that final actions
have been taken on both recommendations upon issuance of this report.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd., 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

Did critical activities financed by USAID Regional
Development Mission/Asia’s U.S. Indian Ocean Tsunami
Warning System Program achieve intended results?

     Some Performance Indicators Did Not
     Achieve Their Targets ................................................................................................. 6

     Reported Results Were Inadequately
     Supported.................................................................................................................... 8

Evaluation of Management Comments ....................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted this audit to determine whether
critical activities financed by USAID Regional Development Mission/Asia’s U.S. Indian
Ocean Tsunami Warning System Program achieved intended results. (See page 3.)

Critical activities under USAID Regional Development Mission/Asia’s (RDM/Asia) U.S.
Indian Ocean Tsunami Warning System (U.S. IOTWS) Program’s performance
management plan did not achieve intended results. Specifically, of the 11 performance
indicators, one achieved its performance target, five did not achieve their performance
targets, and five could not be evaluated because of lack of or inadequate documentation
to support their reported accomplishments. (See page 4.)

The Mission cited several causes that were beyond their control behind the five
indicators that did not meet their performance targets. For example, a U.S. government
partner agency did not make its award to its implementing partner until June 2006, which
put the implementing partner about nine months behind schedule. In addition, another
U.S. government partner agency’s buoy deployment schedules were significantly
impacted by Hurricane Katrina that hit the agency’s buoy center in Mississippi. (See
pages 6-7.)

The audit also showed that reported progress data for five indicators were either
unsupported or inadequately supported. This occurred because the Mission did not
sufficiently manage and monitor the lead program integrator on collecting documentation
supporting the reported results. (See pages 8-10.)

This report made two recommendations to help improve USAID Regional Development
Mission/Asia’s U.S. IOTWS activities. (See pages 8 and 10.)       USAID Regional
Development Mission/Asia agreed with both recommendations and took action on each
of them. Based on our evaluation of USAID Regional Development Mission/Asia’s
written comments and supporting documentation, we consider that final actions have
been taken on both recommendations upon issuance of this report.

USAID Regional Development Mission/Asia’s comments (without attachments) are
included as Appendix II to this report. (See page 15.)




                                                                                      1
BACKGROUND
In December 2004, a 9.3 magnitude earthquake struck off the coast of Sumatra,
Indonesia, triggering a major tsunami that devastated many coastal areas of Asia and
Africa. Almost 300,000 people in eight countries perished in a few hours, and over 1.5
million more lost their homes or livelihoods.

In response to this disaster, the international community, led by the Intergovernmental
Oceanographic Commission (IOC) of the United Nations Educational, Scientific and
Cultural Organization, joined together to develop a tsunami warning and mitigation
system for the Indian Ocean.

As the U.S. government’s direct contribution to the ongoing international effort, USAID
Regional Development Mission/Asia (RDM/Asia) launched the U.S. Indian Ocean
Tsunami Warning System (U.S. IOTWS) Program. Through this two-year, $16.6 million
program, scientists and experts from the United States are sharing their technical
expertise, providing guidance and helping to build an early warning system within the
Indian Ocean region so that governments and communities will be able to detect and
prepare for tsunamis and other related coastal hazards. The program activities are
located primarily in the countries most affected by the tsunami: Indonesia, India, the
Maldives, Sri Lanka and Thailand.

The U.S. IOTWS Program is a collaborative effort involving several partners. In addition
to USAID, other U.S. government agencies include the U.S. National Oceanic and
Atmospheric Administration (NOAA), the U.S. Geological Survey (USGS), the U.S.
Department of Agriculture/Forest Service (USDA/FS), and the U.S. Trade and
Development Agency (USTDA). The program also has one nongovernmental partner:
International Resources Group-Tetra Tech Joint Venture, which serves as the lead
program integrator (LPI).

As shown in Table 1 on the next page, the U.S. IOTWS Program has seven program
areas and each partner has specific roles and responsibilities. RDM/Asia provides
overall management, coordination and administrative support. In this regard, RDM/Asia
manages the LPI, but it does not manage the other U.S. government partners because
they are independent agencies. Instead, it works with them according to the agreement
it has with each of them. 1 The LPI provides technical leadership and broad coordination,
as well as logistical, training, and administrative support in all program areas. The other
U.S. government partners provide the expertise and technology transfer needed to help
establish an early warning system. For example, the NOAA is applying its expertise to
Program Area 4, including assisting to develop an Indian Ocean Tsunami Resilient
Communities Program. Additionally, it is providing technology such as sea-level gauges,
buoys and other related tsunami-detection systems.



1
  USAID has a 632(a) agreement with the USTDA and 632(b) agreements with its other U.S.
government partners. Under a 632(a) agreement (Memorandum of Understanding), USAID
transfers all programmatic and accountability functions to the recipient agency. In contrast, the
terms of a 632(b) agreement (Inter-agency Agreement) require the recipient agency to provide
USAID with performance and/or financial information on a regular basis.


                                                                                               2
Table 1: Summary of Responsibilities of U.S. IOTWS Program Partners by
Program Area

             Program Area               USAID/LPI   NOAA     USGS     USDA/FS      USTDA
    1. Technical support to the IOC        z          z        {
    2. Regional hazard detection,
       observation, and forecast
       systems                             {          z        z                      z
    3. National dissemination and
       communication of warnings           z          z        z          z           z
    4. Local preparedness and
       mitigation                          z          z        {          {          {
    5. Regional exchanges, training,
       and information resources           z          {        z          {          {
    6. Overarching program
       coordination support,
       administration, and outreach        z          {        {          {
    7. Small grants program                z          {        {          {

Major Role: z      Supporting Role: {

The two-year U.S. IOTWS Program itself will not produce a complete tsunami warning
system; it will take the international effort several years to build a complete system. The
U.S. IOTWS Program, however, will contribute significantly to that overall effort.

As of September 30, 2006, RDM/Asia’s total obligations and disbursements for the U.S.
IOTWS Program were approximately $14.1 million and $3.4 million, respectively.

AUDIT OBJECTIVE
The Regional Inspector General/Manila added this audit to its fiscal year 2006 audit plan
to answer the following question:

•     Did critical activities financed by USAID Regional Development Mission/Asia’s U.S.
      Indian Ocean Tsunami Warning System Program achieve intended results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                          3
AUDIT FINDINGS
Did critical activities financed by USAID Regional Development
Mission/Asia’s U.S. Indian Ocean Tsunami Warning System
Program achieve intended results?

Critical activities under USAID Regional Development Mission/Asia’s (RDM/Asia) U.S.
Indian Ocean Tsunami Warning System (U.S. IOTWS) Program did not achieve
intended results as measured by performance indicators. Specifically, of the 11
performance indicators, one achieved its performance target, five did not achieve their
performance targets, and five could not be evaluated because of the lack of or
inadequate documentation to support their reported accomplishments.

To its credit RDM/Asia established and was implementing a complex U.S. IOTWS
Program, involving several independent U.S. government partner agencies working in
five countries. To track the program’s progress, RDM/Asia also established and was
implementing a monitoring system that included:

•   Designating a cognizant technical officer, who reported to the director of RDM/Asia’s
    Regional Environment Office, to oversee the program.

•   Engaging the services of a contractor, called the lead program integrator (LPI), to
    coordinate the U.S. government partner agencies’ efforts towards achieving the
    program’s intended results.

•   Requiring U.S. government partner agencies and the LPI to prepare and submit
    monthly technical progress reports as well as financial reports.

•   Holding periodic meetings with all its partners.

•   Conducting workshops where achievements and best practices were shared with
    other partners.

•   Conducting field visits to program sites and documenting them with trip reports.

•   Communicating daily with all its partners via e-mail and telephone to discuss issues.

As Table 2 on the next page shows, however, 5 of 11 U.S. IOTWS Program performance
indicators did not achieve their performance targets for the period from August 1, 2005
through September 30, 2006. The one performance indicator that met its performance
target pertained to the completion and acceptance of a draft and final conceptual design
for an Indian Ocean early warning system. The conceptual design served as a regional
baseline to guide the development of national warning systems. Lastly, we could not
evaluate the reported results of five other performance indicators because they were
unsupported or inadequately supported.




                                                                                        4
Table 2: Status of the U.S. IOTWS Program as of September 30, 2006

                                                                   Results
                                                     Reported     Verified by      Target
            Performance Indicators         Target     Results        OIG           Met? 2
    1.1: Conceptual design for early
    warning system design accepted.          2          2              2             Yes
    1.2: Protocols, agreements, and
    products developed by ICG/IOTWS
    member nations to ensure
    interoperability of the regional                             Inadequately        Not
    IOTWS system.                            10         5          supported     determined
    2.1: Regional-level tsunami
    detection and communication
    system components (core stations)
    installed, deployed, or upgraded.        10         4              4             No
    2.2: National- and local-level
    tsunami detection system
    components integrated into the
    IOTWS and operated in accordance
    with IOTWS standards and criteria.       10         5              5             No
    3.1: Tsunami/all hazards warning
    dissemination and disaster
    management system components
    designed, developed, or improved at                          Inadequately        Not
    the national level.                      20         17         supported     determined
    3.2: Number of communities
    included in national alert systems /
    Estimated total population in those     400 /     294 /      Inadequately        Not
    communities.                           200,000   147,000       supported     determined
    3.3: Number of government
    agencies (central government /
    municipalities) that received                                                    Not
    technical support                      15 / 30    70 / 42    Not supported   determined
    4.1: Number of communities trained
    in disaster preparedness.               500        187            187            No
    4.2: Coastal communities initiating
    activities that support coastal
    community resilience.                    20         2              2             No
    4.3: Kilometers of coastline under
    improved, sustainable environmental
    management.                              50         0              0             No
    5.1: US$ leverage through private
    sector, nongovernmental
    organizations, donor, and public
    sector resources in support of the
    development of an end-to-end                                 Inadequately        Not
    IOTWS. (In millions.)                   $24.9      $4.4        supported     determined



2
    “Inadequately supported” is used for cases where the reported amount was less than the
    planned performance target and the reported amount could not be verified. “Not supported” is
    used for cases where the reported amount was greater than the planned performance target
    and the reported amount could not be verified.


                                                                                              5
The following sections discuss the performance indicators that did not achieve their
planned results and those whose reported results could not be substantiated.


Some Performance Indicators
Did Not Achieve Their Targets

 Summary: The U.S. IOTWS Program’s performance management plan (PMP)
 included 11 performance indicators with set performance targets to indicate how the
 program is performing. However, five of these performance indicators fell short of
 meeting their performance targets. The cognizant technical officer cited causes that
 were beyond the control of the Mission. As a result, in fiscal year 2006, the U.S.
 IOTWS Program was not as effective as planned in helping advance the IOTWS.


USAID’s Automated Directives System (ADS) 203.3 defines the contents of a complete
PMP. Aside from defining the performance indicators, the PMP should include a
calendar of performance management tasks with illustrative timeline for conducting
them. Typical performance management tasks at the operating unit level include
collecting performance indicator data, reviewing partner reports, and assessing data
quality. Also, the PMP should provide targeted values that can optimistically but
realistically be achieved within the stated timeframe and with the available resources.
Furthermore, the PMP should specify the source of the data and the method for data
collection. Data collection method should be specific enough in explaining how raw data
are collected, analyzed for meaning, and reported. Furthermore, data collection should
be consistent and comparable over time, and any changes should be documented in the
PMP. It should also describe the data quality assessment procedures that will be used
to verify and validate the measured values of actual performance of all the performance
information.

Additionally, USAID’s TIPS No. 7 states that “operating units should consider developing
plans for data analysis, reporting, and review efforts as part of the PMP process. This
will help keep the performance monitoring system on track and ensure performance data
informs decision-making.”

The U.S. IOTWS Program’s performance management plan included 11 performance
indicators with set performance targets to indicate how the program is performing. The
performance indicators are used to observe the progress of the activities and to measure
actual results compared to expected results. Performance targets are the specific,
planned level of result to be achieved within a defined timeframe.

Based on our review of Mission documents, 5 of the 11 indicators in the program’s PMP did
not meet their performance targets in fiscal year 2006. The following discusses some of
the indicators that did not meet their performance targets.

Indicator 2.1 – Tsunami detection and communication system components include
seismometers, geodetic instruments, tide gauges, buoys, and global telecommunications
system upgrades identified as core stations. The performance target for this indicator was
to install, deploy, or upgrade ten tsunami detection and communication system components



                                                                                        6
at the regional level. The Mission reported progress data of four components installed,
deployed, or upgraded. The U.S. National Oceanic and Atmospheric Administration
(NOAA) and the U.S. Geological Survey (USGS) were responsible for the achievement of
this indicator. According to the cognizant technical officer’s (CTO) explanation, USGS did
not make its award to Caltech, its implementing partner, until June 2006. This late award,
in turn, also put Caltech about nine months behind the program schedule. As to NOAA, he
said that NOAA’s deployment schedules were significantly delayed as a result of the
impacts of Hurricane Katrina that hit NOAA’s buoy center in Mississippi.

Indicator 2.2 – This indicator measures the number of functioning core stations (e.g.,
seismometers, geodetic instruments, tide gauges, etc.) integrated and contributing to an
overall end-to-end tsunami early warning system. The performance target was for the
program team to have installed, deployed, or upgraded ten national-level and local-level
tsunami detection and communication system components into the IOTWS and operated in
accordance with IOTWS standards and criteria. The Mission reported that five components
were integrated into the system. Similar to indicator 2.1, USGS and NOAA were also
responsible for the achievement of this indicator. And, the CTO cited the same reasons for
both U.S. government partner agencies’ not meeting the performance target for this
indicator, that is, USGS was late in issuing its award to its implementing partner and
NOAA’s deployment schedules were affected by Hurricane Katrina.

Indicator 4.1 – By making citizens more aware of emergency procedures, the impact of
disaster can be mitigated and thus training in disaster preparedness is aimed at
government officials, nongovernmental organizations, and local leaders who represent or
reach communities. For the September 30, 2006, target of 500 communities, the Mission
tallied 187 communities based on different workshop training. The CTO said that the
delayed implementation of the coastal community resilience (CCR) program caused this
indicator to miss its performance target. He explained that the CCR program is intended to
be the primary vehicle for reporting under this indicator. But, he added that the CCR
program involves a very new conceptual approach; hence, more time is required for
disaster preparedness training in resilience than originally planned for a tsunami resilient
communities program. Accordingly, the CTO said, the delay was a very deliberate decision
made in order to improve the approach and expand the impact of the CCR over what had
been originally planned.

As discussed above, the causes behind the performance indicators not meeting their
targets were beyond the Mission’s control. As a result, the U.S. IOTWS Program was
not as effective as planned in helping advance end-to-end tsunami warning capabilities
in the five focus countries in fiscal year 2006.

In response to the issue regarding the indicators that did not meet their performance
targets, the CTO said that he plans to revise the PMP by updating performance targets
based on one-year results reported in the U.S. IOTWS Program’s annual progress
report. He will also set individual targets for each U.S. government partner agency on a
periodic basis, that is, semi-annually or quarterly. Additionally, he will involve the entire
team to conduct extensive update/clarification of terms and provisions of all PMP
indicators, definitions, data sources, etc. Furthermore, he will require them to document
with full explanation changes made to the PMP. Nonetheless, we are making the
following recommendation to ensure that the Mission includes a timeline to achieve
planned performance targets on schedule.



                                                                                           7
   Recommendation No. 1: We recommend that USAID Regional Development
   Mission/Asia develop and implement a plan that includes a timeline and steps
   needed to achieve planned performance targets on schedule.


Reported Results Were
Inadequately Supported

 Summary: According to USAID guidance, performance data should be accurate and
 reliable and missions should take steps to ensure that submitted data is adequately
 supported. For 5 of 11 performance indicators (45 percent), however, the reported
 results were unsupported or inadequately supported. This occurred because
 RDM/Asia did not sufficiently manage and monitor the LPI on collecting
 documentation supporting the reported results. As a result, RDM/Asia could not
 readily determine if program activities were fully achieving intended results, and it
 could make programmatic or funding decisions based on erroneous performance
 data.


To permit USAID staff to manage for results and produce credible reporting, USAID’s
ADS 203.3.5.1 requires performance data to be precise and reliable. ADS 203.3.5.2
requires missions to perform effective data quality assessments and take steps to
ensure that submitted data are of reasonable quality and adequately supported. USAID
TIPS Number 12 emphasizes the importance of documentation, stating that proper
documentation is a process that facilitates the maintenance of quality performance
indicators and data. Such documentation should provide an opportunity for independent
checks concerning the quality of the performance measurement system.                  ADS
203.3.5.3.c states that if a mission contracts a specific organization to collect data, the
mission should ensure that the organization has the technical capacity to collect data of
appropriate quality as evidenced by source documents that are maintained and readily
available.

RDM/Asia’s contract with the LPI required the LPI to (1) develop a performance
monitoring plan in accordance with the ADS; (2) provide all performance monitoring and
reporting for the overall U.S. IOTWS Program on a regular and ad hoc basis, consistent
with USAID performance and monitoring requirements; and (3) prepare semiannual
progress reports as part of its performance monitoring responsibilities.

Of the 11 performance indicators listed in Table 2 (see page 5), the LPI did not have
sufficient documentation to support their reported results for five of the indicators.
Table 3 on the following page shows the degree to which each of the five performance
indicators was unsupported.




                                                                                         8
Table 3: Review of Reported Results by Performance Indicator

 Performance                                       Verified by          Percent
   Indicator           Reported Results               OIG             Unsupported
      1.2                       5                       4                20%
      3.1                      17                      11                35%
      3.2                294 / 147,000                  0                100%
      3.3                   70 / 42                     0                100%
      5.1                 $4.4 million                  0                100%


For these five indicators, the LPI either did not have documentation or it collected from
U.S. government partner agencies insufficient documentation such as e-mails that
provided only numerical results, unsigned memoranda without letterheads, and unsigned
spreadsheets with no indication of which partner provided the data and no identification
of the sources from which the data was extracted. Some specific examples of the lack
of documentation or insufficient documentation follow:

For indicator 3.1, the Mission reported progress data of 17 tsunami warning
dissemination components such as enabling policies to ensure that national disaster
management organizations possess authority and resources for decision making and
response; communication systems; warning dissemination and disaster response
processes and protocols; and training programs and drills on disaster management
among other things. However, Mission records only supported 11 components
consisting of national disaster management policies and training programs on disaster
management. The remaining Mission records were mostly insufficient documentation in
the form of draft versions of national disaster management policies; training agendas;
unsigned documents with no letterheads; and e-mails.

For indicator 3.2, we could not verify that 294 communities with an estimated population
of 147,000 persons were included in national alert systems due to insufficient
documentation. The Mission submitted an e-mail from an official of the national disaster
warning center in Thailand explaining the methodology used in calculating the reported
progress data. However, there was no evidence to support the number of warning
towers that was used in the methodology.

For indicator 3.3, the Mission reported that 70 central governments and 42 municipalities
received technical support that made them capable in early warning system and disaster
preparedness through the U.S. IOTWS Program. This reported progress data exceeded
the indicator’s performance target of 15 central governments and 30 municipalities.
However, we could not determine the accuracy of the data due to lack of evidence. The
Mission submitted a document listing the names of representatives from various central
government agencies and municipalities that purportedly received technical support.
But, no further evidence was submitted to maintain that technical support was actually
provided or that the government representatives actually received them.

The reported results that were unsupported or inadequately supported occurred because
the Mission did not sufficiently manage and monitor the LPI on collecting documentation
supporting the reported results. For example, the Mission did not explain clearly what
needed to be collected for each indicator. Furthermore, the Mission did not ensure that



                                                                                       9
the LPI and the U.S. government partner agencies knew exactly what data to collect and
report. The Mission in close coordination with the LPI should have clearly defined and
established exactly what the LPI and the U.S. government partner agencies needed to
collect and maintain to support progress for each indicator. Further, the Mission did not
ensure that the LPI was validating the performance data collected from the U.S.
government partner agencies. The ADS states that the description of data collection
should be operationally specific enough to enable an objective observer to understand
how the raw data are collected, analyzed for meaning, and reported. Additionally, data
quality assessments should be performed and procedures that will be used to verify and
validate the progress data should be described.

According to the cognizant technical officer, the Mission instructed all U.S. government
partner agencies and the LPI on USAID reporting requirements, timetable, and PMP
framework during meetings held in September 2005 and January 2006. In regard to
what data was needed to be collected, he explained that both the LPI and the U.S.
government partner agencies directly contributed to developing the planned
performance targets themselves; hence, no additional steps were taken to clarify what
should be reported. Further, the CTO said that the reporting process itself for the U.S.
IOTWS Program is extraordinarily complex, involving not only multiple program partners
(e.g., U.S. government agencies and the lead program integrator), but various units
within each U.S. agency as well as subcontractors and sub-grantees. Thus, he added,
data gathering, quality control, and reporting become significant undertakings. He said
that, unfortunately, while data quality assessments had been performed on other
RDM/Asia Regional Environment Office programs, assessments were not similarly
conducted on its tsunami programs, including the U.S. IOTWS Program.

The LPI stated that the two workshops on the subject of monitoring and evaluation that
the Mission conducted did not go into the details of collecting and reporting on results in
accordance with USAID reporting requirements. Nevertheless, the LPI said that general
materials on the monitoring and evaluation systems and procedures under USAID were
made available to and generally known by persons in the LPI office. Additionally, the
LPI said that the Mission did not ensure that the LPI knew exactly what to collect and
report in explicit terms. Regarding data quality assessments, the LPI explained that
USAID did not ever raise a question that verification of all results was needed and/or
what such verification would entail during the development of the PMP, the integrated
work plan or the semiannual or annual reports.

As a consequence, RDM/Asia could not readily determine if the program activities were
achieving intended results. Furthermore, the Mission could make programmatic or
funding decisions based on erroneous data.

Since the Mission did not sufficiently manage and monitor the LPI on the collection of
data supporting the reported results, and the cognizant technical officer said that the
reporting process itself for the U.S. IOTWS Program is extraordinarily complex, there is
even more reason for the Mission to review and ensure that the LPI will start collecting
quality data, adequately supporting them with sufficient documentation, and maintaining
a file for the documents. Therefore, we are making the following recommendation:

   Recommendation No. 2: We recommend that USAID Regional Development
   Mission/Asia develop and implement a plan that will require the cognizant
   technical officer for the U.S. Indian Ocean Tsunami Warning System Program to


                                                                                        10
provide technical direction to International Resources Group-Tetra Tech Joint
Venture in regularly validating the quality of data, including supporting
documentation for the data, and to maintain the supporting documentation and
make them readily available.




                                                                                11
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID Regional Development Mission/Asia agreed
with both recommendations.

In response to the first recommendation the Mission described the actions taken to date
towards implementing its updated integrated program work plan and performance
measurement plan.

In response to the second recommendation, the Mission provided its plan of corrective
action for assisting both the lead program integrator and its agency partners to improve
on the reporting and the quality of the data supporting program results.

Based on our review of the Mission’s comments, detailed actions, and supporting
documents, we determined that final actions have been taken on both
recommendations.




                                                                                     12
                                                                                   APPENDIX I


SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards to determine whether critical
activities financed by USAID Regional Development Mission/Asia’s (RDM/Asia) U.S.
Indian Ocean Tsunami Warning System (U.S. IOTWS) Program achieved intended
results.

The audit covered the U.S. IOTWS Program’s intended results from August 1, 2005, to
September 30, 2006. As of that date, RDM/Asia had recorded obligations of about $14.1
million and disbursements of about $3.4 million for the U.S. IOTWS Program. The audit
fieldwork was conducted from October 16 to November 2, 2006, at the Bangkok, Thailand
offices of the Mission and the lead program integrator (LPI), International Resources
Group-Tetra Tech Joint Venture.

In planning and conducting the audit, we reviewed and assessed the significant internal
controls used by RDM/Asia to ensure that the U.S. IOTWS Program activities were
achieving intended results. The assessment included controls related to whether the
Mission (1) conducted and documented site visits to evaluate progress and monitor quality;
(2) reviewed progress and monitoring reports submitted by the LPI and the other U.S.
government agencies participating in the program; (3) prepared and implemented a
performance management plan with performance targets and milestone events; and (4)
maintained accurate financial records for the program. We also reviewed the Mission’s
Federal Managers’ Financial Integrity Act report for fiscal year 2006 for any issues related
to the audit objective. Since the U.S. IOTWS Program is a new program, there were no
prior audit findings and recommendations to review.

Our audit focused on the intended results for the U.S. IOTWS Program’s five major areas:
(1) technical support to the Intergovernmental Oceanographic Commission; (2) regional
hazard detection, observation, and forecast systems; (3) national dissemination and
communication of warnings; (4) local preparedness and mitigation; and (5) regional
exchanges, training, and information resources.         We reviewed all 11 performance
indicators used by RDM/Asia to measure whether intended results were being achieved.
The scope of this audit was limited to the progress data contained in the draft fiscal year
2006 U.S. IOTWS Program’s annual progress report because at the time of audit the final
report was not complete.

Methodology
To answer the audit objective, we interviewed officials and staff from RDM/Asia and the
LPI. In addition, we reviewed documentary evidence to validate the accuracy of the U.S.
IOTWS Program’s progress data reported in the Mission’s draft fiscal year 2006 annual
progress report. 3 For example, we traced reported results to supporting documentation
prepared by the LPI or collected by the LPI from the participating U.S. government
3
  The draft fiscal year 2006 annual progress report included results achieved from August 1, 2005
to September 30, 2006.


                                                                                              13
                                                                              APPENDIX I


agencies. Furthermore, we reviewed work plans prepared by RDM/Asia as well as
those submitted by the LPI. Additionally, we verified the accuracy of the program’s
financial records maintained by the Mission by tracing the reported summary of
obligations and expenditures to the details recorded in the Mission’s financial systems.

In answering the audit objective, we used the following materiality thresholds:

•   If at least 90 percent of the intended results were achieved, we would answer the
    audit objective positively.

•   If at least 70 percent, but less than 90 percent of the intended results were achieved,
    we would answer the audit objective positively, but with a qualification.

•   If less than 70 percent of the intended results were achieved, we would answer the
    audit objective negatively.




                                                                                        14
                                                                               APPENDIX II


MANAGEMENT COMMENTS


21 February 2007


MEMORANDUM

TO:            Regional Inspector General/Manila, Catherine M. Trujillo

FROM:          USAID Regional Development Mission/Asia Acting Mission Director,
               Richard Whelden /s/

SUBJECT:       Mission Response to Audit of USAID RDM/A’s U.S. Indian Ocean
               Tsunami Warning System (IOTWS) Program


Thank you for the opportunity to respond to the draft Audit Report regarding USAID
RDM/A’s US IOTWS Program.

The stated objective of the audit was to determine whether RDM/A’s US IOTWS
Program achieved intended results. The audit found that 9 out of 11 performance
indicators did not achieve their targets as of September 30, 2006, and that results were
inadequately supported. RDM/A fully accepts these findings, and has taken steps to
address concerns with the program’s reporting systems as addressed below in response
to the two audit recommendations.

RDM/A appreciates RIG’s acknowledgement of the unique conditions under which this
program is operating. By the time of the audit, the US IOTWS Program’s Performance
Management Plan (PMP) no longer accurately reflected realistic performance indicators
or targets. While a couple of planned activities had been unexpectedly delayed in the
first year, from the start the US IOTWS Program faced the challenge of preparing its
planning and performance management documentation without full knowledge of the
specific needs (or “demand”) by national or regional counterparts for warning system
components or for technical support. Critical decisions for developing the overall IOTWS
are made through a complex, evolving dialogue led by the Intergovernmental
Coordination Group for the IOTWS (ICG/IOTWS), a regional body made up of the 27
Indian Ocean states and involving numerous donors and other organizations. 4 In
coordination with the ICG/IOTWS, the first comprehensive country-level assessments of

4
 The ICG/IOTWS was established under the auspices of the Intergovernmental Oceanographic
Commission (IOC) of the United Nations Educational, Scientific, and Cultural Organization
(UNESCO). While the United States is a member of the IOC, it is an observer of the ICG/IOTWS.


                                                                                          15
                                                                             APPENDIX I


tsunami warning system needs were not completed until December 2005, four months
after the US program began. Only then could international planning and coordination
truly begin to determine how the countries and donors would address system
requirements. Some response actions began soon afterwards, while only recently have
other requirements been fully articulated.

The US IOTWS Program adopted an “adaptive management” approach to cope directly
with these external uncertainties, and planned to periodically adjust the work plan (and
appendices including the PMP) as pragmatically and efficiently as possible. The
adaptive management approach was articulated in the original program Concept Paper
(April 2005), Program Description (June 2005), and Work Plan (Section 2.5, March 2006
version). The program team had originally planned to update the Work Plan as often as
semi-annually. The first, most appropriate time to update the Work Plan and PMP was
deemed to be immediately following completion of the first Annual Report (December
2006), in particular to consider the effectiveness of performance measures and targets in
the PMP following the first year of implementation. Given the intention to complete the
program by September 2007, this will likely be the only update to the Work Plan.

Despite prevailing uncertainties in the international context, the US Government has
remained among the most active and effective contributors to developing the IOTWS.
US Program activities and achievements are among the only bilateral actions reflected in
the ICG/IOTWS Implementation Plan, published in August 2006. As of September 30,
2006, the US IOTWS Program’s initial accomplishments included the following:

   y   Adoption of a draft and refined conceptual design of the overall IOTWS;
   y   Continuous 24x7 monitoring and notification of tsunamis to Indian Ocean
       countries by the US’s Pacific Tsunami Warning Center (PTWC);
   y   Training for over 500 experts, including 112 government agencies, in tsunami
       warning systems and operations, seismology, tsunami field research, tsunami
       rapid alert systems, disaster management, incident command systems,
       community resilience to disasters, and related fields;
   y   Critical upgrades to 4 sea-level detection stations in Indonesia, Sri Lanka, and
       the Maldives, and their integration into international networks;
   y   Integration of 1 seismic station to international monitoring networks; and
   y   Linking nearly 300 communities to national alert systems.

The US IOTWS Program has also made important progress in several areas since
September 2006. For instance, the Program successfully deployed the first fully
operational deep-ocean tsunami detection buoy. To date, this remains the only deep-
ocean station to be providing real-time data on international networks.

RDM/A’s response to the two recommendations follows below:

Recommendation No. 1: We recommend that USAID Regional Development
Mission/Asia develop and implement a plan that includes a timeline and steps needed to
achieve planned performance targets on schedule.

RDM/A agrees with Recommendation No. 1, and intends to apply the recently updated
Integrated Program Work Plan and Performance Management Plan (PMP) as the key
management tools, or “plan,” for achieving performance targets on schedule. Through a
process beginning in December 2006, IRG-TetraTech Joint Venture, which serves as


                                                                                          16
                                                                           APPENDIX I


the Lead Program Integrator (LPI), completed and submitted updates to both documents
to the CTO on February 10, 2007. The steps needed for achieving planned performance
targets on schedule were articulated by each responsible program partner during the
Work Plan revision process, and changes are now reflected in the current version of the
Work Plan. The Work Plan lists specific activities and anticipated deliverable dates, in
connection, where applicable, to specific performance indicators and targets. The Work
Plan, PMP, and a new monthly reporting template will be forwarded to RIG under
separate cover.

Recommendation No. 2: We recommend that USAID Regional Development
Mission/Asia develop and implement a plan that will require the cognizant technical
officer for the U.S. Indian Ocean Tsunami Warning System Program to provide technical
direction to International Resources Group-Tetra Tech Joint Venture in regularly
validating the quality of data, including supporting documentation for the data, and to
maintain the supporting documentation and make them readily available.

RDM/A agrees with Recommendation No. 2, and has already adopted and implemented
a plan to address this recommendation based on a number of corrective actions RDM/A
identified and discussed with the RIG audit team during the audit in October 2006.
RDM/A’s plan, including each action and its completion status, is summarized in
Attachment 1.

As an important step in addressing this recommendation, RDM/A plans to conduct a
Data Quality Assessment (DQA) following the completion of all other corrective actions.
The DQA will ensure IRG-TetraTech’s ability to regularly validate the quality of data,
including supporting documentation for the data, and to maintain the supporting
documentation and make such documentation readily available.




                                                                                      17
                                                                                   APPENDIX I


                        Attachment 1 – RDM/A Plan for IRG-TetraTech to Implement
                        Corrective Actions

      Action                                              Status

Instruct IRG-          Completed. Based on a number of concerns raised during the audit in
TetraTech JV to        October 2006, RDM/A prepared as a list of corrective actions for the
Implement              LPI to immediately undertake in order to improve its ability to gather,
Corrective Actions     validate, track, and maintain performance data and documentation. These
                       corrective actions were outlined in a letter dated November 15, 2006
                       from Carey A. Gordon, RDM/A’s Regional Contracting Officer, to Asif
                       Shaik, Program Manager of IRG-TetraTech JV and President of IRG.
                       That letter instructed IRG-TetraTech JV to undertake the corrective
                       actions immediately under the technical direction of the CTO,
                       following a proposed timetable.
                       IRG-TetraTech JV responded positively to that letter on December 6,
                       2006, stating its commitment to undertake an aggressive set of
                       initiatives that would address these concerns.

Request USG            Completed. RDM/A issued letters dated November 29, 2006 from
Agency Partners to     Acting Mission Director Richard Whelden to each of the USG partner
Cooperate with IRG-    agencies, including NOAA, USGS, USDA/FS, and USTDA. Those
TetraTech in           letters requested the agencies’ full cooperation with the process to
Implementing
                       address the corrective actions RDM/A had outlined in the timetable
Corrective Actions
                       provided to IRG-TetraTech.
                       Each agency responded positively to Acting Mission Director
                       Whelden’s requests, three of which submitted letters or emails to that
                       effect. The fourth agency, NOAA, agreed verbally to support these
                       actions.

Update staffing plan   Completed. The CTO requested a revised staffing plan and budget and
to strengthen          conducted several meetings with the Chief of Party to address IRG-
performance            TetraTech’s ability to meet all performance management requirements and
management             supporting related tasks. IRG-TetraTech provided these to the CTO on Nov.
capacity               17, 2006.
                       In response to RDM/A’s request, on Jan. 24, 2007 IRG-TetraTech deployed
                       a full-time M&E Specialist to be stationed at the program office in Bangkok
                       for the duration of the program.
                       In addition, a new Program Integration/Coordination Specialist, who will
                       assist in several related areas, is scheduled to deploy to Bangkok on Feb.
                       20, 2007.

Mobilize short-term    Completed. In response to the initial letter to Asif Shaik, IRG-
technical staff to     TetraTech mobilized three program technical staff to Bangkok to
initiate               provide immediate short-term assistance to complete the Annual
improvements to        Report FY2006 and to initiate revisions to the Integrated Program
reporting process,
                       Work Plan and the Performance Management Plan. These staff
and revisions to
work plan and PMP      conducted their assignments in Bangkok during the period of Dec. 4 to
                       Dec. 14.



                                                                                               18
                                                                                     APPENDIX I


Explain               Completed. IRG-TetraTech submitted a memorandum to the CTO on Dec.
discrepancies         8, 2006 documenting discrepancies between March 2006 Integrated Work
between program       Plan/PMP, June 2006 Semi-Annual Report, and FY2006 Annual Report. The
management            CTO approved the memorandum in an email dated Dec. 15, 2006.
documents and
reports

Update source         Completed. IRG-TetraTech adopted new procedures for source
documentation         documentation coding and filing Nov. 15, 2006, and submitted
tracking system       recommendations for source documentation tracking in a report to the CTO
                      on Dec. 13, 2006. A final report on reporting and documentation tracking
                      procedures was submitted on Feb 11, 2007.

Complete Annual       Completed. Following extensive revision and input from USG partners, IRG-
Report FY2006         TetraTech submitted final FY2006 Annual Report to CTO on Dec. 31, 2006.
                      The final Annual Report included explanations of results not achieved against
                      original performance targets, and planned revisions to Work Plan and PMP.
                      All performance data is backed by complete source documentation on file
                      with IRG-TetraTech.

Revise program        Completed. As planned following completion of the first Annual Report,
PMP                   IRG-TetraTech submitted a draft revised PMP to the CTO on Feb 2, 2007.
                      Based on projected targets collected from the USG agency partners, IRG-
                      TetraTech submitted the final PMP to the CTO on Feb 11, 2007. The
                      updated PMP includes a stronger clarification/rationalization of indicators and
                      two narrative sections describing performance measure and procedures for
                      collecting, validating, and reporting data. Updated targets were completed in
                      close coordination with the Work Plan revision process.

Revise Integrated     Completed. As planned following completion of the first Annual Report,
Program Work Plan     IRG-TetraTech has conducted a complete update of the program Work Plan.
                      IRG-TetraTech followed a systematic approach that would reflect updated
                      activities of all program partners while also identifying performance targets to
                      be included in the revised PMP. The CTO received the initial revision of the
                      Work Plan on Dec. 20, 2006, and the final Work Plan on Feb 11, 2007.

Revise monthly        Completed. In coordination with the revised PMP and Work Plan, RDM/A
technical reporting   requested and IRG-TetraTech completed new monthly reporting templates
format                for each program partner that allow for tracking and reporting monthly and
                      quarterly performance targets, results, and source documentation directly in
                      line with the Work Plan schedule. US agency signatures are now required
                      when submitting technical reports. The CTO received a draft monthly
                      technical reporting format from IRG-TetraTech on Dec. 13, 2006, and the
                      final revised reporting format on Feb 11, 2007.

PMP Data Quality      Scheduled. In line with completion of the new PMP, RDM/A is scheduled to
Assessment            conduct a Data Quality Assessment of the US IOTWS Program at the Lead
                      Program Integrator’s office (IRG-TetraTech) o/a Mar 14, 2007.




                                                                                                19
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
